fi

same  CQCKLE

. E-Mail Address:
Omaha, Nebraska 68102-1214 L e g a I B tm e fs contact@cocklelegalbriefs.com
St. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-73

MICHAEL W. GAHAGAN,
Petitioner,
Vv.
UNITED STATES CITIZENSHIP &
IMMIGRATION SERVICES, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITIONER’S REPLY

BRIEF in the above entitled case complies with the typeface requirement of Supreme Court Rule
33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 2759 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 26th day of September, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
State of Nebraska . LE ‘
My Commission Expires Nov 24, 2020 ‘€

 

Notary Public Affiant

38731
